HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Travelers Insurance Company, (A-07-98-01214)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Travelers
Insurance Company," (A-07-98-01214)
June 18, 1998
Complete Text of Report is available in PDF format
(1.13 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Travelers Insurance Company (Travelers). We determined
that Travelers under claimed allowable medicare pension costs for 1991 through
1995. During this period, the allowable Medicare pension costs were $2,089,883.
However, Travelers claimed pension costs of $597,662 for Medicare reimbursement.
As a result, Travelers did not claim $1,492,221 of allowable pension costs.
The under claim occurred primarily because Travelers did not base its claims
on separately computed pension costs for the Medicare segment. We recommend
Travelers revise its Final Administrative Cost Proposals (FACPs) to reflect
the additional allowable pension costs.